U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 5, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Malik Akbar Bhai v. William P. Barr, Attorney General,
S.Ct. No. 20-22

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 8, 2020,
and placed on the docket on July 15, 2020. The government’s response is due on August 14,
2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 14, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0022
BHAI, MALIK AKBAR
WILLIAM P. BARR, ATTORNEY GENERAL

SIMON AZAR-FARR
SIMON AZAR-FARR & ASSOC., P.C.
2313 NORTH FLORES
SAN ANTONIO , TX 78212
210-736-4122
SIMON@SIMONAZARFARR.COM

